FAA CONTINUES TO MAKE PROGRESS IN
   IMPLEMENTING ITS CONTROLLER
  WORKFORCE PLAN, BUT FURTHER
EFFORTS ARE NEEDED IN SEVERAL KEY
              AREAS
       Federal Aviation Administration
        Report Number: AV-2007-032
        Date Issued: February 9, 2007
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Controller Staffing: FAA                  Date:    February 9, 2007
           Continues To Make Progress in Implementing Its
           Controller Workforce Plan, but Further Efforts Are
           Needed in Several Key Areas
           Federal Aviation Administration
           Report Number AV-2007-032

  From:                                                             Reply to
           David A. Dobbs                                           Attn. of:   JA-10
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Federal Aviation Administrator

           This report provides the results of our review of the Federal Aviation
           Administration’s (FAA) progress in implementing key elements of its Controller
           Workforce Plan. Our objectives were to (1) evaluate FAA’s progress in
           implementing key staffing and training elements of its Controller Workforce Plan
           and (2) assess the effectiveness of other initiatives designed to increase controller
           productivity. We conducted the review between June 2006 and December 2006,
           which included visiting the FAA Training Academy and 10 air traffic control
           facilities. Exhibit A contains details on our review scope and methodology.
           Exhibit B lists the facilities visited during the audit.

           BACKGROUND
           In response to concerns over an anticipated surge in air traffic controller attrition,
           FAA was directed by Congress in 2003 to prepare a detailed plan to ensure
           adequate staffing within the controller workforce. In December 2004, FAA issued
           the first in a planned series of annual reports outlining FAA’s plans for addressing
           that challenge. The report, entitled “A Plan for the Future: The Federal Aviation
           Administration’s 10-Year Strategy for the Air Traffic Controller Workforce,” (the
           2004 Plan) detailed FAA’s strategy for hiring approximately 12,500 new
           controllers to replace those expected to leave over the next 10 years. The 2004
           Plan also outlined various initiatives for increasing controller productivity and for
           decreasing on-the-job training (OJT) time and costs.


                                                     i
FAA issued the first installment of the mandated annual update to the Controller
Workforce Plan on August 24, 2006 (the 2006 Update). The 2006 Update revised
controller retirement projections and staffing requirements based on actual results
and changes in air traffic forecasts since 2004. The 2006 Update also projected
hiring approximately 11,850 controllers over the next 10 years. Additionally,
FAA revised its retirement projection methodology from the 2004 Plan.

In May 2005, we published a review1 of FAA’s 2004 Plan. We found that the
2004 Plan was a good first step in that it clearly laid out the magnitude of the
controller retirement issue and established planned actions for meeting the
challenge. However, we concluded that future reports to Congress would require
greater detail in terms of FAA’s strategy for executing key elements of the plan,
such as facility-by-facility staffing levels, the total estimated costs, and the
Agency’s progress in meeting established milestones. FAA agreed with our
recommendations and committed to addressing these concerns in its next update of
the 2004 Plan.

In June 2004, we reported2 that FAA had an opportunity to improve the process of
training and placing air traffic controllers, in light of pending retirements. For
instance, we found that FAA provided minimal oversight of the OJT process at the
national level. Even though OJT was the longest part of the training process, FAA
had no national statistics on key performance measurements, such as delays or
breaks in the OJT process. We recommended that FAA compile national statistics
and establish a baseline to better manage the time and costs associated with the
controller OJT process and include these in developing a centralized tracking
system for training.

RESULTS IN BRIEF
FAA continues to make progress in implementing a very comprehensive and
complex staffing plan. In the Department of Transportation’s Performance and
Accountability Report for fiscal year (FY) 2006, FAA rated itself as having made
moderate progress in addressing the expected surge in air traffic controller
attrition. We agree with FAA’s self-assessment. During our audit, we found that
FAA has made significant improvements by centralizing its hiring process and has
made progress in reducing the time and costs to train new controllers, primarily
through greater use of simulator training at the FAA Training Academy and
implementation of a new national database to track OJT statistics. However,
further progress is needed in several key areas.

1
    OIG Report Number AV-2005-060, “Controller Staffing: Observations on FAA’s 10-Year Strategy for the Air
    Traffic Controller Workforce,” May 26, 2005.
2
    OIG Report Number AV-2004-060, “Opportunities To Improve FAA's Process for Placing and Training Air Traffic
    Controllers in Light of Pending Retirements,” June 2, 2004. OIG reports can be found on our website:
    www.oig.dot.gov.


                                                       ii
First, FAA is still in the process of developing accurate facility level staffing
standards, which are a foremost necessity in effectively placing newly hired
controllers where they will be most needed. Planning by location is critical
because FAA has over 300 terminal and en route air traffic control facilities with
significant differences in the types of users they serve, the complexity of airspace
they manage, and the levels of air traffic they handle. Without accurate facility-
level planning, FAA runs the risk of placing too many or too few controllers at key
locations.

Various groups have repeatedly expressed concerns that some FAA air traffic
facilities are either under- or over-staffed and that replacing retiring controllers
one-for-one at each location would simply perpetuate existing staffing imbalances.
FAA is aware of this concern and is in the process of validating its staffing
standard models based on data derived at the sector and position levels in order to
develop accurate staffing ranges for all of its facilities (this process is being
conducted by FAA’s contractor, MITRE Corp.). FAA expects to complete this
assessment for its 21 en route centers (its largest facilities) in early 2007.
However, estimated completion for the entire project is not until the end of 2008.

Given the goal of increasing controller productivity, the lengthy training time, and
significant expenditures that will be required to hire and train new controllers over
the next 10 years, FAA needs to ensure this project remains on track. We are
recommending that FAA include in the next update of the 2004 Plan its progress
made in validating facility staffing standards, including the number of facilities
completed; the staffing ranges established for each of those locations; and the
estimated completion date for all remaining facilities.

Second, FAA needs to refine its methodology for projecting controller
retirements. In FY 2005, actual controller retirements were 36 percent higher
than FAA projected. FAA significantly changed its retirement projection
methodology in the 2006 Update—basing its projections on actual monthly
retirements in FY 2005. According to FAA officials, they plan to use an average
of all prior years’ data (beginning with FY 2005 actual data) to establish a
“running trend” for forecasting future retirements. During the first 6 months of
FY 2006, FAA’s projections were extremely close to the actual number of
retirements that occurred.

However, beginning in April 2006, actual retirements began exceeding FAA’s
projections when negotiations between the Agency and the National Air Traffic
Controller Association (NATCA) over a new collective bargaining agreement
reached an impasse. By September, when FAA began unilaterally implementing
its own proposals for open Articles, actual retirements were nearly three times
higher than FAA had projected (97 actual retirements compared to 39 projected).
According to FAA and NATCA officials, the large jump in actual retirements was

                                         iii
a result of the breakdown in contract talks. In our opinion, those events
underscore the need for FAA to refine its methodology to consider future events
that could trigger a similar reaction.

For example, actual controller retirements may accelerate significantly when many
controllers will see a reduction in pay as FAA phases out Controller Incentive Pay,
a second locality pay now received by many controllers. FAA began phasing out
this additional pay last month. This one-time event could adversely impact the
retirement estimates for 2007 and beyond. In our opinion, FAA needs to refine its
methodology so that events that have the potential to significantly impact
controller retirements (similar to what occurred in September 2006) are taken into
consideration.

Third, FAA is making progress in the controller training process, but
improvements are still needed to reduce OJT time. FAA is making progress in
the controller training process, but there are still opportunities for improvement.
We found that the addition of en route and terminal simulators at the FAA
Training Academy provide more realistic training opportunities for students while
increasing the training capacity at the Academy.

As a result of a recommendation from our 2004 report, FAA also established a
national OJT data tracking system that allows the Agency to collect and analyze
the data from all air traffic facilities for the purpose of identifying where
efficiencies and program improvements can be made. However, we found
inaccurate data in the tracking system because there were no clear instructions to
the facilities on which data were required and how they should be entered into the
system. Additionally, as we found in our 2004 audit, excessive gaps still exist in
the controller OJT program.

We are recommending that FAA issue conforming instructions to all air traffic
facilities on exactly which data should be included in the OJT national database
and begin using the database to identify best practices.

Fourth, FAA reached its goal of reducing controller staffing by 3 percent for
FY 2005, but it is unknown whether the initiatives established in the 2004
Plan were effective in helping achieve that reduction. FAA introduced several
initiatives in the 2004 Plan that were intended to improve workforce efficiency
and controller productivity. Those initiatives include efficiencies such as reducing
the use of sick leave by 8 percent, ensuring appropriate use of workers’
compensation benefits, and increasing scheduling efficiencies.

FAA achieved a 3-percent productivity gain in FY 2005 by decreasing total
controller staffing by 3 percent, a goal established in the 2004 Plan. However, it is
unclear what, if any, additional impact FAA’s productivity initiatives had on

                                         iv
controller productivity because FAA did not establish baseline metrics for
measuring the effectiveness of those initiatives (see Exhibit C for the status of the
productivity initiatives and FAA’s progress as of the 2006 Update).

As we recommended in our May 2005 report, FAA needs to establish baseline
metrics for the initiatives, then update the 2004 Plan annually to reflect actual
progress in achieving each initiative and ultimately in achieving its goal to reduce
controller staffing by 10 percent. FAA concurred with this recommendation in
July 2005 and agreed to include the information in the 2006 Update but did not.
We are requesting that FAA provide us with new target dates for addressing this
recommendation.

Finally, FAA has still not identified the total costs associated with the
Controller Workforce Plan. The cost of hiring and training over 11,800 new
controllers will be substantial, particularly since it currently takes new controllers
2 to 5 years to become fully certified. During that time, FAA incurs the cost of the
trainee’s salary and benefits as well as the cost of the salaries and benefits of the
certified controllers who instruct trainees individually.

In our 2005 report, we recommended that FAA develop detailed cost estimates
and offsets. The offsets are particularly important now that questions concerning
the new controllers’ salaries have been settled under the new contract for
controllers.3 FAA concurred with the recommendation but did not address our
concerns in the 2006 Update. Accordingly, we are also requesting that FAA
provide us with new target dates for addressing this recommendation.

The following chart is our assessment of FAA’s progress in implementing key
elements of the Controller Workforce Plan. A green rating indicates that
significant progress is being made in implementing the initiative. A yellow rating
indicates that moderate progress is being made but significant challenges remain
to be addressed. A red rating indicates that no progress has been made.




3
    On June 5, 2006, FAA declared an impasse and submitted its last offer to Congress for a 60-day review as required
    by the 1996 FAA personnel reform legislation (49 U.S.C. 106 and 40122). After Congress did not take action during
    the 60-day period, FAA imposed its last offer and began to enforce its terms on September 3, 2006. FAA refers to
    the new personnel system changes as its “contract” with the controllers union. In contrast, the union refers to the
    changes as “imposed work rules.” For the purposes of this report, we will refer to them as a “contract.”


                                                           v
  Table 1. OIG Assessment of FAA’s Progress in Implementing
         Key Elements of the Controller Workforce Plan

    Area of Concern            Status                Comments

Staffing Standards       Yellow • FAA needs to revise its staffing standard
                                   models.
                                • MITRE Corp. is currently measuring en route
                                   sector complexities.
                                • Various stakeholders are using at least six
                                   different staffing numbers to determine
                                   staffing levels.
Projected Retirements Yellow • Projections need to be refined to account for
                                   one-time events that could cause a surge in
                                   retirements.
                                • Total losses were revised down significantly
                                   to correct errors in the 2004 Plan.
Hiring Process           Green • Centralized hiring allows:
                                    9 management of the process
                                    9 earlier notice of new hires to facilities and
                                    9 reduced clearance time.
Controller Training      Yellow • FAA significantly improved its Academy
                                   simulator training.
                                • FAA implemented a national OJT database
                                   but lacks clear instructions on entering data.
                                • FAA is still experiencing excessive breaks in
                                   the OJT cycle.
Productivity Initiatives Yellow • FAA achieved its FY 2005 overall goal of a
                                    3-percent productivity gain.
                                 • FAA lacks baseline metrics to measure
                                    success of initiatives.
Costs                     Red • FAA lacks detailed cost estimates of the 2004
                                   Plan.
                                • FAA needs to identify offsetting savings from
                                   the new contract for controllers.
Source: OIG analysis of FAA data




                                        vi
SUMMARY OF RECOMMENDATIONS
Our recommendations focus on the specific actions that FAA needs to take to
ensure that its stakeholders have a complete and accurate picture of the ongoing
10-year strategy for the controller workforce and the resources that will be
required. Specifically, the recommendations include:

• Reporting on the progress made in validating the staffing standard models and
  in establishing staffing ranges for each location in the next update of the Plan;

• Refining the methodology for projecting controller retirements so that events
  that have the potential to significantly impact controller retirements are taken
  into consideration;

• Issuing clear instructions to all air traffic facilities on exactly which data
  should be included in the OJT national database and how those data should be
  entered; and

• Using the OJT national database to (1) determine whether training resources
  can be used more efficiently and effectively and (2) identify best practices.

A complete set of our recommendations can be found on page 18 of this report.

MANAGEMENT COMMENTS AND OIG RESPONSE
We provided FAA with a draft copy of this report on December 15, 2006, for
comment. On February 8, 2007, FAA gave us its formal response, which is
contained in its entirety in the Appendix.            FAA concurred with our
recommendations to include the progress made in validating staffing standard
models in the next update of the Plan, issue instructions on data to be included in
the OJT national database, and use the database to improve oversight of the OJT
process (recommendations 1, 3, and 4). We consider these recommendations
resolved.

FAA did not concur with our second recommendation (to refine its projected
retirement methodology). In its response, FAA stated that in the second half of
FY 2006, actual retirements versus projections began to diverge, most likely as a
result of the rhetoric associated with the contract impasse. However, FAA points
out that it was able to proactively increase its planned new hires during the last
quarter of the year to compensate for the increased retirements. According to
FAA, rather than refining the methodology to account for one-time events, it
believes the ability to adjust the hiring pipeline is a more appropriate way to deal
with unpredictable events that may affect controller retirements.


                                        vii
In our draft report, we advised FAA that it could provide alternative courses of
action that it believes would resolve the issues presented in this report. In this
instance, the actions proposed by FAA meet the intent of our recommendation,
which was to ensure that the Agency was adequately prepared to address
unanticipated increases in controller retirements. FAA’s planned actions should
address our concerns. Accordingly, we consider this recommendation resolved as
well.

A complete summary of FAA’s comments, our response, and the actions required
can be found on pages 19 through 21 of this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call Robin Hunt,
Acting Assistant Inspector General for Aviation and Special Program Audits, at
(415) 744-0420 or Dan Raville, Program Director, at (202) 366-1405.



                                        #



cc:   FAA Deputy Administrator
      FAA Chief of Staff
      Senior Vice President ATO Finance, AJF-0
      Anthony Williams, ABU-100




                                       viii
                               TABLE OF CONTENTS


FINDINGS .............................................................................................. 1
    Staffing Standards: FAA Is In the Process of Validating
    Facility Level Staffing Standards ....................................................... 1
    Projected Retirements: FAA Needs To Refine Its
    Methodology for Projecting Controller Retirements .......................... 5
    Hiring Process: FAA Has Made Progress in
    Streamlining the Controller Hiring Process ....................................... 8
    Controller Training: FAA Is Making Progress in the
    Controller Training Process, but Improvements Are Still
    Needed To Reduce On-The-Job Training Time to Under
    3 Years. ........................................................................................... 10
    Productivity Initiatives: FAA Reached Its Overall Goal
    of a 3-Percent Staff Savings for FY 2005, but the
    Agency Does Not Know Whether the Initiatives
    Established in the 2004 Plan Were Effective in
    Achieving This Productivity Gain..................................................... 14
    Costs: FAA Still Has Not Identified the Total Costs
    Associated With Implementing the 2004 Plan................................. 16
RECOMMENDATIONS........................................................................ 18
MANAGEMENT COMMENTS AND OIG RESPONSE........................ 19
ACTIONS REQUIRED ......................................................................... 21
EXHIBIT A. SCOPE AND METHODOLOGY ..................................... 22
EXHIBIT B. FACILITIES VISITED ...................................................... 23

EXHIBIT C. STATUS OF VARIOUS PRODUCTIVITY
INITIATIVES INCLUDED IN THE CONTROLLER
WORKFORCE PLAN........................................................................... 24

EXHIBIT D. MAJOR CONTRIBUTORS.............................................. 26
EXHIBIT E. RELATED OFFICE OF INSPECTOR
GENERAL REPORTS (2002 – 2006) .................................................. 27

APPENDIX. MANAGEMENT COMMENTS........................................ 28
                                                                                  1



FINDINGS
FAA continues to make progress in implementing key initiatives of its Controller
Workforce Plan. For example, FAA has significantly improved its hiring process
by centralizing it and has made progress in reducing the time and costs to train
new controllers primarily through greater use of simulator training at the Academy
and implementation of a new national database to track OJT statistics. However,
FAA needs to make further progress in several key areas. These include:

   • Completing the Agency’s validation of more accurate staffing standards for
     its over 300 locations,
   • Refining the Agency’s methodology for projecting controller retirements,
   • Continuing efforts to reduce the time and costs associated with OJT,
   • Establishing baseline metrics to measure the effectiveness of controller
     productivity initiatives, and
   • Identifying the estimated total costs of the Controller Workforce Plan.

These actions are necessary to ensure that FAA continues to maintain the current
momentum in addressing a very complex and comprehensive plan for hiring and
training over 11,800 controllers through FY 2015. These actions are also
necessary to ensure that the Agency’s stakeholders have a complete and thorough
understanding of the extent of this challenge, the progress made by FAA in
addressing it, and the resources required.

Staffing Standards: FAA Is In the Process of Validating Facility Level
Staffing Standards
 Area of Concern       Status                       Comments

Staffing Standards    Yellow      • FAA needs to revise its staffing standard
                                    models.
                                  • MITRE Corp. is currently measuring en
                                    route sector complexities.
                                  • Various stakeholders are using at least six
                                    different staffing numbers to determine
                                    staffing levels.
The current staffing standards are generally accurate at the “macro” level and
can be used for national estimates but they are not as accurate at the facility
level. FAA is aware of this and is in the process of updating the models used to
establish the staffing standards. However, the schedule for this program may not
be completed until 2008. In the interim, at least six staffing numbers are being
used; this is causing confusion and uncertainty at the national and facility level.




Findings
                                                                                                                   2


FAA has used staffing standard models to determine controller staffing levels
since the 1970s, and they are the basis for the FY 2006 controller staffing
standards. However, these staffing standard models were last updated in the 1990s
and do not include major technology and policy changes that impact staffing at the
facility level, such as new systems or implementation of the Family and Medical
Leave Act. The current staffing standards also do not take into account local
factors such as runway configurations, airspace complexity, or air defense
identification zone requirements.

The staffing standards used by FAA are not highly accurate at the facility level in
part because the staffing models were originally designed to generate national
estimates. In 1997, the National Academy of Sciences completed a review4 of
FAA’s staffing standards and concluded that, “The committee does not believe
that the current staffing standards can be used to provide highly accurate estimates
of staffing requirements for individual facilities.”

FAA is aware that it needs more accurate facility level staffing standards and is in
the process of validating staffing standards in order to develop staffing ranges that
can be used at the facility level. As a part of the validation process, the Agency
has contracted with MITRE Corporation to measure sector complexities at each of
FAA’s 21 en route centers. This is a huge undertaking that involves the contractor
measuring the controller workload at each of the 750 airspace sectors in the en
route centers nationwide. The results of this study should provide accurate
controller requirements at each of those facilities. FAA also plans a similar study
for its Terminal Radar Approach Control (TRACON) facilities and a recalibration
of the model used at air traffic control towers.

However, new staffing ranges based on validated staffing models have not been
reported for any location since the validation process began over 1 year ago. The
latest timeline provided by FAA indicated that staffing standards will be complete
for the 21 en route centers by early calendar year 2007 and will be complete for
the TRACONs and tower facilities by the end of calendar year 2008. Given
FAA’s goal to increase controller productivity through staff savings and the
significant expenditures that will be required to hire and train controllers over the
next 10 years, the Agency needs to ensure that this high priority project remains
on track.

In the interim, FAA is currently establishing staffing ranges by facility, which take
into account the existing staffing standard models but also include facility
manager input and expected productivity improvements. Although these ranges


4
    Transportation Research Board Special Report 250, “Air Traffic Control Facilities, Improving Methods To Determine
    Staffing Requirements,” 1997.


Findings
                                                                                                            3


are a step toward more accurate controller levels, they are not a replacement for a
facility-level staffing range based on validated staffing standard models.

During this audit, we found many different staffing numbers being quoted at the
national level and for individual facilities. For example,

   • FAA Headquarters officials quoted either the staffing standards or the
     2004 Plan staffing targets as the staffing level;
   • Union representatives quoted the staffing levels previously negotiated
     between the Agency and NATCA;
   • FAA established yet another number by creating an Interim Staffing Target
     to be used until the staffing standard models are validated; and
   • Other numbers were quoted at facilities and included “the budgeted staffing
     level,” the “finance team staffing level,” and “practical staffing standard
     levels.”

In some cases, we found these numbers to be significantly different. For example,
Figure 1 compares the total number of controller requirements according to the
FY 2006 Staffing Standards, FAA’s Interim Staffing Targets, and the actual on-
board number of controllers (as of August 2006). As shown in the chart, the
various staffing numbers range from a high of 15,057 controllers when using the
Staffing Standards to a low of 13,502 controllers when using the Interim Staffing
Standards—a difference of over 1,500 controllers.

                            Figure 1. Some of the Various Numbers Used To Define
                                        National Staffing Requirements

                            20000
                                                                Enroute        Terminal
                            18000

                            16000            15,057
                                                                                              14,279
    Number of Controllers




                            14000                                       13,502

                            12000
                                             7297
                                                                                               7676
                            10000                                       7807
                             8000

                             6000

                             4000            7760
                                                                        5695                   6603
                             2000

                               0
                                    FY 2006 Staffing Standard   Interim Staffing Target   Actual On Board




Findings
                                                                                                                                4


When compared at the facility level, the differences are even more apparent. For
example, Figure 2 shows the different “authorized” staffing levels for both the
New York TRACON and the Washington En Route Center. When we visited the
New York TRACON, there were 190 controllers assigned to the facility (actual
on-board number). When comparing that number to the 2006 Staffing Standard
(179), the facility appears to be overstaffed by 6 percent (11 controllers). When
comparing the actual on-board number to the previously negotiated number (270),
the facility appears to be understaffed by 30 percent (80 controllers).

We found similar circumstances at the Washington En Route Center. When
comparing the 371 controllers actually on board to the FY 2006 Staffing Standard
(485), the facility appears to be understaffed by 24 percent (114 controllers).
However, when comparing the controllers on board to the Interim Staffing Target
(337), the facility appears to be overstaffed by 10 percent (34 controllers).

                           Figure 2. Various Numbers Used To Define Controller
                                      Requirements for Two Facilities


                          600

                                                                                              485
                          500
  Number of Controllers




                                                                                                                412
                          400                                                        371
                                                                                                          337
                          300                                   270
                                     190      179      199
                          200

                          100

                           0

                                       New York TRACON                                 Washington Center

                                Actual On Board     FY 2006 Staffing Standard   INTERIM Staffing Target     Negotiated Number


 Source: FAA

We found that these various staffing numbers cause confusion and uncertainty at
the national and the facility level and underscore the need for FAA to complete the
validation of the facility staffing standard models on time in order to develop one
credible staffing range for each of its over 300 air traffic facilities. We are
recommending that FAA include in the next update of the 2004 Plan the progress
made by the Agency and its contractor in validating the staffing standard models



Findings
                                                                                                                               5


and in establishing staffing ranges for each location and the expected completion
date for both of these actions.

Projected Retirements: FAA Needs To Refine Its Methodology for
Projecting Controller Retirements

       Area of Concern                              Status                                   Comments

Projected Retirements    Yellow • Projections need to be refined to account
                                      for one-time events that could cause a
                                      surge in retirements.
                                   • Total losses were revised down
                                      significantly to correct errors in the 2004
                                      Plan.
Actual controller retirements during the first 2 years of the 2004 Plan have been
significantly higher than originally projected. Figure 3 illustrates that the
2004 Plan projected that 341 air traffic controllers would retire in FY 2005 and
439 would retire in FY 2006. Actual retirements for FY 2005, however, were
465 controllers—a 36-percent increase over the projected number. Furthermore,
the 2006 Update revised anticipated retirements in FY 2006 from 439 to 467.
However, 583 controllers actually retired during FY 2006—a 25-percent increase
over the 2006 projection and nearly 33 percent above the 2004 Plan projection.

                                 Figure 3. FAA’s Controller Retirement Projections
                                            Versus Actual Retirements
                             Figure 3a. FY 2005 Projections                             Figure 3b. FY 2006 Projections
                               Versus Actual Retirements                                 Versus Actual Retirements
                           700
                                                                                       700
                                                                                                                    583
   Number of Controllers




                           600
                                                                                       600
                                                               Number of Controllers




                                                 465
                           500                                                                             467
                                                                                       500        439
                           400         341
                                                                                       400
                           300
                                                                                       300
                           200
                                                                                       200
                           100
                                                                                       100
                            0

                                          FY 2005                                       0
                                                                                                          FY 2006
                                     2004 Plan      Actual                                    2004 Plan   2006 Update     Actual

 Source: FAA                                                  Source: FAA



In the 2006 Update, FAA also significantly changed its total projected losses over
the next 10 years. As shown in Figure 4, FAA projected in the 2004 Plan that total

Findings
                                                                                                                                                                       6


controller losses from FY 2006 through FY 2014 would be 10,338 controllers. In
the 2006 Update, FAA projected that only 9,314 controllers would leave the
controller workforce during the same time period—a reduction of over 1,000
projected controller losses.

                              Figure 4. FAA’s Total Projected Controller Losses*

                           1,800




                                                                                                                                                       1,559
                                     2004 Plan Total Losses




                                                                                                                                       1,451
                                                                                                                       1,375
                           1,600     2006 Update Total Losses




                                                                                                       1,249
                           1,400




                                                                                       1,144
   Number of Controllers




                                                                     1,032
                           1,200


                                                       967




                                                                                                                               1,167
                                                907




                                                                                                                                               1,107
                                                                                                               1,098
                           1,000




                                                                                                                                                               1,059
                                                                                               1,051
                                                                             1,017
                                                             1,008
                                            1,007
                                     654




                            800
                                   800




                            600

                            400

                            200

                              0
                                   2006      2007      2008          2009              2010            2011            2012            2013            2014

                                                                                     Fiscal Year

 Source: FAA’s 2004 Controller Workforce Plan and 2006 Update
*Total losses include retirements, resignations, removals, deaths, training failures, and promotions.

According to FAA, the significant reduction in controller losses in the later years
of the 2006 Update is due to a change in projection methodology that corrected the
treatment of mandatory retirements. In the 2004 Plan, FAA estimated that
25.5 percent of all controllers would retire in the first year they became eligible.
However, FAA also counted these individuals again when they reached mandatory
retirement age resulting in “double counting” of controller retirements in the later
years. The methodology was changed in the 2006 Update to correct double
counting in the later years.

The 2004 Plan also estimated controller retirements based on a 3-year increment
of controller retirement history to project a retirement pattern out to FY 2014. The
calculation indicated that 25.5 percent of controllers retired during their first year
of retirement eligibility, and 70.5 percent of controllers retired within their first
7 years of retirement eligibility.

In the 2006 Update, FAA changed the methodology for projecting retirements.
FAA projected controller retirements based only on the pattern established by
controllers retiring in FY 2005. Retirement projections using only 1 year of
historical retirement data indicated that fewer controllers would retire during their
first year of eligibility (23.4 percent versus 25.5 percent). This method also


Findings
                                                                                                                                                            7


indicated that 87.1 percent of controllers retired within their first 7 years of
retirement eligibility, compared to 70.5 percent. According to FAA officials, they
plan to use an average of all prior years’ data (beginning with FY 2005 actual
data) to establish a running trend for forecasting future retirements.

During the first 6 months of FY 2006, FAA’s projections were extremely close to
the actual number of retirements that occurred. However, beginning in
April 2006, actual retirements began exceeding FAA’s projections when
negotiations between the Agency and NATCA over a new collective bargaining
agreement reached an impasse. As shown in Figure 5, by September, when FAA
began unilaterally implementing its own proposals for open Articles, actual
retirements were nearly three times higher than FAA had projected (97 actual
retirements compared to 39 projected).

                                              Figure 5. FAA FY 2006 Projected Versus
                                                         Actual Retirements



                                                                                                               On September 3, 2006,
                                                                          On April 5, 2006,
                                                                                                               FAA/NATCA contract
                                                                           FAA declared
                                                                                                                    unilaterally
                                                                             impasse.
                                                                                                               implemented by FAA.
                             120



                             100
    Controller Retirements




                                                                                                                   .
                              80



                              60



                              40



                              20



                              0
                                   Oct-05     Nov-05    Dec-05   Jan-06      Feb-06   Mar-06   Apr-06   May-06         Jun-06   Jul-06   Aug-06    Sep-06


                                     Oct-05    Nov-05   Dec-05   Jan-06     Feb-06    Mar-06   Apr-06   May-06     Jun-06       Jul-06   Aug-06   Sep-06
 Actual 2006                            15       26       23      103         32       26       52        40            64       55        50      97
 Prior Year 2005                        17       25       40      99          21       29       49        23            47       48        26      39

                      Source: FAA




According to FAA officials, the large jump in actual retirements was a result of
the breakdown in contract talks. In our opinion, those events underscore the need
for FAA to refine its methodology to consider future events that could trigger a
similar reaction. For example, there may be a significant jump in controller
retirements during January 2007 when many controllers will see a reduction in


Findings
                                                                                   8


their pay checks as FAA begins phasing out Controller Incentive Pay, a second
locality pay that many controllers now receive. This one-time event could
adversely impact the retirement estimates for 2007 and beyond.

We also met with NATCA officials to discuss the projected number of retirements
in the 2006 Update. Union officials stated that the number of estimated
retirements was too low. They pointed to the fact that actual retirements in the
previous 2 years were well above those projected. They also predicted that the
new contract imposed on the workforce would increase the number of actual
retirements in the coming years. Union officials advised us that they had also
hired an independent contractor to conduct a study on staffing standards to
determine the correct number of controllers required at the facility level.

Accurate retirement total estimates are an important element of FAA’s Controller
Workforce Plan. Given the current lack of valid facility-level staffing standards,
the large percentage of active controllers who are or will become eligible to retire
in the next 10 years, and the extensive training required to become a controller,
FAA must refine its methodology for projecting when and where the controller
workforce will experience losses. This is imperative to ensure that future hiring
plans will sustain an operationally viable controller workforce. Accordingly, we
are recommending that FAA refine its methodology so that events that have the
potential to significantly impact controller retirements (similar to what occurred in
September 2006) are taken into consideration.

Hiring Process: FAA Has Made Progress in Streamlining the
Controller Hiring Process

   Area of Concern         Status                     Comments

Hiring Process            Green   Centralized hiring allows:
                                    • Greater efficiency and better
                                       management of the process
                                    • earlier notice of new hires to facilities
                                       and
                                    • reduced clearance time.
In January 2006, the Air Traffic Organization centralized the entire controller
hiring process. We found that this improves process efficiency by eliminating
duplication of effort and now allows individual facilities to identify prospective
new controllers by name as much as 1 year in advance. FAA also anticipates
making improvements in the time needed for applicants to obtain medical and
security clearances.




Findings
                                                                                                                                         9


In FY 2005 and FY 2006, FAA hired more controllers than had been anticipated in
the 2004 Plan or the 2006 Update. As illustrated in Figure 6, the 2004 Plan
projected a need for 435 new controllers in FY 2005. FAA hired 519 controllers,
almost 20 percent above the 2004 projection. Likewise, FAA’s 2006 Update
projected a need for 930 new controllers in FY 2006, while 1,116 new controllers
were actually hired, also about 20 percent above the projection. The increased
hiring levels were possible because FAA has made progress in streamlining the
controller hiring process, which will allow the Agency more fluidity in making
any necessary mid-course hiring corrections.

                                     Figure 6. FAA’s Controller Hiring Estimates
                                 Figure 6a. FY 2005 Estimated        Figure 6b. FY 2006 Estimated Hiring
                                      Versus Actual Hires                   Versus Actual Hires

                           800                                                            1,600
                           700
                                                                                          1,400       1,249
   Number of Controllers




                                                                  Number of Controllers
                           600                       519                                                                1,116
                                                                                          1,200
                           500           435                                                                   930
                                                                                          1,000
                           400
                                                                                           800
                           300
                                                                                           600
                           200

                           100
                                                                                           400

                            0                                                              200
                                               FY 2005                                       0
                                                                                                              FY 2006
                                       2004 Plan         Actual                                   2004 Plan   2006 Update       Actual
 Source: FAA                                                      Source: FAA

During our 2004 audit, we found that FAA had no well-defined national hiring
process. Essentially, FAA hired and placed new controllers based only on where
and when vacancies occurred. Additionally, in accordance with the 1998 NATCA
collective bargaining agreement, FAA was compelled to negotiate the national,
regional, and facility distribution of vacancies. As a result, FAA’s hiring process
was decentralized and inefficient, as each region duplicated the process with little
or no communication with other regions.
In January 2006, the Air Traffic Organization (ATO) centralized the entire
controller hiring process. The Aviation Careers Division in Oklahoma City now
coordinates all new controller hiring, including processing and evaluating
applications, tracking medical and security clearances, and assigning individual
candidates to specific air traffic control facilities. The new contract for
controllers, implemented in September 2006, also eliminated requirements to
negotiate staffing levels with the union.




Findings
                                                                                 10


We found that centralized hiring improves process efficiency by eliminating
duplication of effort and now allows individual facilities to identify prospective
new controllers by name as much as 1 year in advance. During our facility visits,
all managers knew whether or not they were scheduled to receive new hires and, if
so, who they were and when they were to arrive at the facility. One facility
manager even produced a list of 19 new controllers scheduled to arrive at the
facility during the first three quarters of FY 2007. This was not the case during
our 2004 audit when we found that managers did not know how many new
controllers had been hired at their locations or the new hire’s names. They also
did not know if they were even receiving new controllers at their locations. FAA
also anticipates reducing the 97-day median time required for applicants to obtain
medical and security clearances.

FAA’s new controller hiring procedures are a major shift in policy from those we
found in place in 2004. The centralized process now in place allows FAA to
coordinate more efficiently between the service areas and provide—by name—
hiring selections to facility managers up to 1 year in advance. The hiring process
also provides ATO with the hiring flexibility it needs to ensure new controllers are
hired when needed despite changing controller requirements.

Controller Training: FAA Is Making Progress in the Controller
Training Process, but Improvements Are Still Needed To Reduce On-
The-Job Training Time to Under 3 Years.

   Area of Concern        Status                       Comments
Controller Training         Yellow • FAA significantly improved its Academy
                                        simulator training.
                                    • FAA implemented a national OJT database,
                                        but lacks clear instructions on entering
                                        data.
                                    • FAA is still experiencing excessive breaks
                                        in the OJT cycle.
FAA is making progress in the controller training process. We found that the
addition of en route and terminal simulators at the FAA Training Academy
provides more realistic training opportunities for students while increasing the
training capacity at the Academy. As a result of a recommendation from our
2004 report, FAA also established a national OJT data tracking system that allows
the Agency to collect and analyze data from all air traffic facilities. However, we
found inaccurate data in the tracking system because there were no clear
instructions to the facilities on which data were required and how data should be
entered into the system. Additionally, as we found in our 2004 audit, excessive
unexplained breaks still exist in the controller OJT cycle, which can needlessly
extend the certification time for controllers.


Findings
                                                                               11


Academy Training: During our visit to the Training Academy, FAA officials
showed us the facility’s new simulator training capabilities. FAA completed the
installation of four new tower simulators (see Figure 7), which doubled the
training capacity from the previous simulation technology. The Tower Simulation
Systems (TSS) provide trainees with a combination of high fidelity training and
the latest in voice recognition technology. In addition, a 20-sector en route lab
was completed, which enables the Academy to train new controllers on current
technology being used in the field.

             Figure 7. Picture of a Tower Cab Simulator




            Source: FAA

The goals in expanding the simulation capabilities at the Academy are to increase
the performance of the student through more realistic training, increase student
capacity at the Academy, and to help reduce the time needed for new controllers to
become fully certified. As Table 2 shows, the Academy currently has ample
capacity to handle the number of new controllers projected to be hired in the 2006
Update.

             Table 2. Training Academy Capacity Versus
                 Controller Workforce Plan Forecast

                    Fiscal Year      Capacity      Projections
                          2007         2,140          912
                          2008         2,140          976
                          2009         2,140         1,010
                          2010         2,140         1,144
                    Source: FAA Training Academy



Findings
                                                                                      12


On-The-Job Training: During our 2004 audit, we found that FAA provided
minimal oversight of the OJT process at the national level. We found that even
though OJT is the longest portion of the controller training process, FAA did not
have national statistics on key performance measurements, including the
following:

   •   Amount of time controllers need to certify,
   •   Delays in the OJT process,
   •   Where and when training failures occur, and
   •   Total costs to provide OJT.

We concluded that unless FAA accumulated site-specific statistics at the national
level, it had no means to assess the overall OJT process, determine whether
training resources could be more efficiently and effectively used, and identify best
practices. We recommended in our 2004 report that FAA compile national
statistics, establish a baseline to better manage the time and costs associated with
the controller OJT process, and include these in developing a tracking system for
training.

FAA concurred with our recommendation and implemented a national OJT data
tracking system in January 2006. FAA currently collects and maintains training
data from all air traffic control facilities and will be able to analyze this data at the
national level to provide best practices to all terminal and en route facilities. We
believe FAA has made a significant step in the right direction in establishing this
system but caution the Agency on the accuracy of the data currently in the tracking
system. During a limited review of data in the OJT tracking system, we found two
areas of concern that warrant further review by FAA.

First, we found that there are no clear instructions to the individual facilities
on which training data to enter and how to enter them into the tracking
system. Thus, we found that some facilities entered the data differently than
others. For example, we found that the New York TRACON counted a new hire’s
Academy training as part of the OJT time while all the other facilities we visited
did not. This resulted in the TRACON showing a longer OJT process for its new
hires than actually occurs. We also found errors in class length and the number of
days it took new controllers to complete various stages of the training process.
FAA needs to ensure that all facilities are reporting their training data the same
way in order to have accurate statistics. We are recommending that FAA issue
conforming instructions on exactly which data should be included and how those
data should be entered into the OJT database.




Findings
                                                                                 13


Second, we found that there are still excessive breaks in the training process
that extend the time required for a new controller to become fully certified.
This was also a finding in our 2004 audit. For example, at one of the en route
centers we visited, we found that 6 controllers waited over 100 days to begin their
OJT. FAA must identify these occurrences and eliminate them in order to
significantly reduce OJT time for new controllers. We are recommending that
FAA begin using its OJT database to determine whether training resources can be
used more efficiently and effectively, identify best practices, and identify and
investigate instances where excessive breaks in the OJT process occur.

Although FAA is planning to reduce the average training time it takes to become a
certified controller, we have concerns about the Agency’s ability to achieve this
while concurrently increasing the percentage of developmental controllers in the
workforce. Beginning in FY 2007, FAA is planning to increase the percentage of
developmental controllers at en route centers to over 25 percent of the total
workforce.

FAA projects that developmental controllers will make up 25 percent or more of
the entire controller workforce until FY 2014. According to FAA, a workforce
consisting of up to 35 percent developmental controllers is acceptable. However,
a 35-percent level of developmental controllers would represent the highest
percentage of the workforce in recent years. We found that only about 15 percent
of the national controller workforce is currently comprised of developmental
controllers. The increase in the percentage of developmental controllers is a
concern because it means there will be fewer certified controllers within the
workforce to control air traffic and to provide OJT. Air traffic managers and
NATCA facility representatives we interviewed during this audit indicated that a
staffing ratio of up to 25 percent of developmental controllers to Certified
Professional Controllers would still enable effective controller training.

Because FAA is expecting to increase the percentage of developmental controllers
to over 25 percent of the workforce as early as FY 2007 in the en route centers, it
is vital for FAA to have facility level plans for hiring and training controllers so
that managers can begin planning how to handle the logistics of training the
increased number of developmental controllers. FAA will also need to continually
monitor the training results from the individual facilities to ensure the
developmental controller rate does not adversely impact the overall efficiency or
safety of operations in the National Airspace System.




Findings
                                                                                  14


Productivity Initiatives: FAA Reached Its Overall Goal of a 3-Percent
Staff Savings for FY 2005, but the Agency Does Not Know Whether
the Initiatives Established in the 2004 Plan Were Effective in
Achieving This Productivity Gain

   Area of Concern         Status                     Comments

Productivity Initiatives Yellow • FAA achieved its FY 2005 overall goal of a
                                       3-percent productivity gain.
                                    • FAA lacks baseline metrics to measure
                                       success.
FAA achieved a 3-percent productivity gain in FY 2005 by decreasing its total
controller staffing by 3 percent, a goal established in the 2004 Plan. However, it
is unclear what, if any, additional impact FAA’s productivity initiatives had on
controller productivity. The effect the 2004 Plan initiatives had on overall
productivity gains cannot be measured because FAA has not established baseline
metrics, as we recommended in our 2005 report.

FAA introduced several initiatives in the 2004 Plan intended to improve
workforce efficiency and controller productivity. FAA anticipated that over
5 years, starting with 3 percent in FY 2005, these initiatives would have the
potential to yield controller staff savings of about 10 percent, relative to the
existing staffing standard projections. FAA estimated the initiatives would result
in a 3-percent staff savings in FY 2005, 5 percent in FY 2006, 7 percent in
FY 2007, 9 percent in FY 2008, and would maintain a 10-percent reduction each
year thereafter from FY 2009 through FY 2014.

FAA’s initiatives include efficiencies such as reducing the use of sick leave by
8 percent, ensuring appropriate use of workers’ compensation benefits, and
increasing scheduling efficiencies. The intent of these initiatives is to make more
controllers available for controlling air traffic. These productivity initiatives and
FAA’s progress as of the 2006 Update are listed at Exhibit C.

In our 2005 audit, we found that the implementation of these initiatives was an
ambitious operational undertaking and that only through continued monitoring
could FAA determine the final impact of the initiatives. To ensure the initiatives
were achieving the desired results, we recommended that FAA establish baseline
metrics for the initiatives, then update the workforce plan annually to reflect the
actual progress in achieving each initiative and ultimately in achieving the goal to
reduce controller staffing by 10 percent.




Findings
                                                                                                                15


In the 2006 Update, FAA stated that the Agency achieved the 3-percent
productivity goal for FY 2005.5 In total, FAA handled about the same number of
air traffic operations with fewer air traffic controllers. Table 3 shows that the
number of operations per controller increased from 9,537 operations in FY 2004 to
9,796 operations in FY 2005, an increase of over 250 operations per controller.
During the same period, the number of controllers went from 14,934 to 14,540, a
decrease of 394 controllers. However, when asked, FAA officials stated that they
were unsure how much the initiatives outlined in the 2004 Plan had impacted the
gain in productivity because metrics for measuring the effectiveness of each
initiative were not being tracked.

                                Table 3. Controller Productivity

                                                          Number of Controllers
                         Combined Activity                                                        Operations
    Fiscal Year                                            (Actual On-Board)
                           (Operations)                                                          per Controller
                                                               Number)
         2004                 142,423,848                             14,934                            9,537

         2005                 142,438,471                             14,540                            9,796
Source: FAA

We acknowledge that the impact on productivity gains of some of the initiatives is
hard to measure. For example, although FAA has completed the deployment of
CRU-X/ATO Resource Tool, a computer-based tool to record time and attendance
and labor distribution for operational controllers and supervisors, it is very
difficult to directly measure the impact the tool has had on productivity gains in
the controller workforce.

Some initiatives are easier to measure, and their impact has been measured in the
2006 Update. For example, by eliminating many workgroups, meetings, and
conferences, FAA indicated in the 2006 Update that it was able to save almost $1
million from the previous year.

Other initiatives, however, may have a quantifiable result, but may not have a
direct effect on controller staffing. For example, while FAA claims that it realized
a cost avoidance of $1 million last year through its workers compensation return-
to-work policy, this program does not always return a controller back to the radar
screen. Usually, a controller is returned to work in some lesser capacity, such as
performing administrative duties. A controller in the return-to-work program must
still be replaced on radar position by another controller on the schedule.



5
    Since the 2006 Update was released in August 2006, the productivity gains for FY 2006 were not available.


Findings
                                                                                   16


Other initiatives could not be measured because they were dependent upon a new
contract for controllers. At the onset of our review, FAA and NATCA were
engaged in negotiations over a new collective bargaining agreement. After
declaring an impasse and submitting all open articles to Congress for a 60-day
review (as required by 1996 personnel reform legislation) on June 5, 2006, FAA
imposed its last offer for all unresolved issues and unilaterally imposed a new
contract for controllers. FAA began implementing terms of the new contract on
September 3, 2006. With the implementation of the new contract, FAA can begin
exploring other flexibilities to improve staffing, such as the use of more flexible
work schedules, part-time controllers and split shifts. New methods for
scheduling leave under the new contract could also have a significant effect on the
need for overtime, thus increasing staff savings.

Overall, we found that FAA is making progress in implementing the initiatives
from the 2004 Plan, but the impact of each initiative in achieving desired goals is
unclear. Since FAA did not establish baseline metrics for a majority of the
initiatives, we could not determine the impact that each individual initiative had in
increasing productivity and reducing staffing during this review.

Accordingly, we are reiterating our 2005 report recommendation that FAA needs
to establish baseline metrics for the initiatives and then update the workforce plan
annually to reflect the actual progress in achieving each initiative and ultimately in
achieving its goal to reduce controller staffing by 10 percent. FAA concurred with
this recommendation in July 2005 and agreed to include the information in the
2006 Update but did not. We are requesting that FAA provide us with new target
dates for addressing this recommendation.

Costs: FAA Still Has Not Identified the Total Costs Associated With
Implementing the 2004 Plan

   Area of Concern         Status                      Comments

Costs                       Red      • FAA lacks detailed cost estimates of the
                                        2004 Plan.
                                     • FAA needs to identify offsetting savings
                                        from the new contract for controllers.
FAA’s 2006 Update does not identify the annual and total costs for hiring,
training, and certifying new controllers to meet future requirements. In addition,
FAA needs to estimate any offsetting cost reductions realized with the
implementation of a new contract for controllers. As we stated in our 2005
report, without detailed costs, neither Congress, the Department, nor the Office of
Management and Budget will have a clear understanding of the financing needed
to fulfill the future air traffic controller requirements as proposed in the 2004
Plan.


Findings
                                                                                 17


FAA submitted some of the cost details associated with the 2004 Plan in its
FY 2007 budget submission. For example, FAA requested $18.2 million to hire
and train new controllers in FY 2007. Of that amount, $7.5 million is to hire
1,136 new controllers in FY 2007 and the remaining $10.7 million is for controller
technical training, which supports classroom and laboratory training for
approximately 2,500 controllers hired since FY 2005. However, FAA does not
provide estimated details for FY 2008 and beyond, when hiring projections remain
at over 1,000 new controllers per year.

FAA should also include in the estimates any offsetting cost reductions realized
from the 2004 Plan. While the largest costs associated with the 2006 Update will
be hiring over 11,800 new controllers over the next 10 years, FAA has made
improvements in reducing the training costs and salaries for the new hires. For
example, FAA is saving $20,000 per trainee while at the Academy because of
restructured travel and compensation policies for trainees attending initial
Academy training.

In addition, the salaries for new hires will be lower with the implementation of the
new contract for controllers. For example, under the old contract, an Academy
graduate had an annual base salary of between $38,080 and $53,312. Under the
new contract, an Academy graduate will earn an annual base salary of $31,700.
Over time, this will help reduce FAA’s average base salary and, in turn, will help
reduce the growth of FAA’s operating costs.

FAA needs to develop detailed cost estimates and offsetting savings before the
next update of its workforce plan, particularly now that questions concerning new
controllers’ salaries have been settled under the new contract for controllers.
These estimates should also be updated annually to reflect the Agency’s progress
in meeting the requirements of the 2004 Plan, and any changes made to the
2004 Plan. We also recommended this in our May 2005 report; FAA concurred
in July 2005 and agreed to include the information in the 2006 Update but did not.
We are requesting that FAA provide us with new target dates for addressing this
recommendation.




Findings
                                                                                  18



RECOMMENDATIONS
We recommend that FAA:

   1. Include in the next update of the Plan the progress made by the Agency and
      its contractors in validating facility staffing standards including the number
      of facilities completed, the staffing ranges established for each of those
      locations, and the estimated completion date for all remaining facilities.

   2. Refine its methodology for projecting controller retirements so that events
      that have the potential to significantly impact controller retirements (similar
      to what occurred in September 2006) are taken into consideration.

   3. Issue clear instructions to all air traffic facilities on exactly which data
      should be included in the national database and how those data should be
      entered.

   4. Begin using the OJT national database to (a) determine whether training
      resources can be used more efficiently and effectively, (b) identify best
      practices, and (c) identify and investigate instances where excessive time
      lapses in the OJT process occurred.

In addition, we made the following recommendations in our May 2005 report on
controller staffing:

   • Establish baseline metrics for all of the initiatives in the 2004 Plan and
     annually evaluate actual progress made in (a) implementing each initiative
     and (b) achieving the anticipated staffing reduction of 10 percent.

   • Develop detailed cost estimates and offsets that identify the annual and
     total net costs associated with the 2004 Plan.

FAA concurred with these recommendations in July 2005 and agreed to include
the information in the 2006 Update but did not. Accordingly, we are requesting
that FAA provide us with new target dates for addressing these recommendations.




Recommendations
                                                                                 19



MANAGEMENT COMMENTS AND OIG RESPONSE
We provided FAA with a draft copy of this report on December 15, 2006, for
comment. On February 8, 2007, FAA gave us its formal response, which is
contained in its entirety in the Appendix.

FAA concurred with our recommendations to include the progress made in
validating staffing standard models in the next update of the Plan, issue
instructions on data to be included in the OJT national database, and use the
database to improve oversight of the OJT process (recommendations 1, 3, and 4).
We consider these recommendations resolved.

FAA did not agree with our second recommendation (to refine its projected
retirement methodology). In its response, FAA states that in the second half of FY
2006, actual retirements versus projections began to diverge, most likely as a
result of the rhetoric associated with the contract impasse. However, FAA points
out that it was able to proactively increase its planned new hires during the last
quarter of the year to compensate for the increased retirements. According to
FAA, rather than refining the methodology to account for one-time events, it
believes the ability to adjust the hiring pipeline is a more appropriate way to deal
with unpredictable events that may affect controller retirements.

In our draft report, we advised FAA that it could provide alternative courses of
action that it believes would resolve the issues presented in this report. In this
instance, the actions proposed by FAA meet the intent of our recommendation,
which was to ensure that the Agency was adequately prepared to address
unanticipated increases in controller retirements. FAA’s planned actions should
address our concerns. Accordingly, we consider this recommendation resolved as
well.

In addition, we made the following recommendations in our May 2005 report on
controller staffing:

   • Establish baseline metrics for all of the initiatives in the 2004 Plan and
     annually evaluate actual progress made in (a) implementing each initiative
     and (b) achieving the anticipated staffing reduction of 10 percent.

   • Develop detailed cost estimates and offsets that identify the annual and
     total net costs associated with the 2004 Plan.

FAA concurred with these recommendations in July 2005 and agreed to include
the information in the 2006 Update but did not. We requested that FAA provide
us with new target dates for addressing those recommendations. In its response to
this report, FAA reiterated that it concurred in part with both recommendations.

Management Comments and OIG Response
                                                                                  20


However, it is unclear exactly what actions the Agency plans to take. For
example, concerning our prior recommendation to establish baseline metrics for
all initiatives in the 2004 Plan, FAA states in its response:

   . . .there were more than 35 separate initiatives listed in the 2004 Plan, most of
   which are interdependent (non-separable) and/or have no costs associated with
   them. Therefore, they cannot be baselined to derive meaningful quantifiable
   measures tied to productivity. In addition, broad changes realized as a result of
   our contract negotiations impact the initiatives identified in the 2004 Plan and
   present new opportunities for improvement.
   We can, however, show that we are achieving total productivity, as measured
   by bottom line improvements. We will continue to provide status updates for
   initiatives that will help the agency achieve the total productivity goal, but
   estimating the contribution of each initiative is labor intensive, costly, and
   would divert resources.

Concerning our prior recommendation to develop detailed cost estimates and
offsets that identify the annual and total net costs associated with the 2004 Plan,
FAA states in its response:

   Determining the total cost of implementing the plan is difficult to calculate
   because the cost to hire and train the new controllers is embedded in the
   agency’s annual budget. Further, since improvements are made each year,
   total 10 year costs would vary from year to year in the plan. Annually, the
   budget identifies training and hiring costs as well as cost savings from some
   FAA initiatives. The previous budget (FY 2006) included a discretionary
   increase to expand Academy training in order for the agency to have adequate
   funding to train new staff consistent with targets set in the plan. In addition,
   developmental controllers in various stages of training actually perform
   controller work as they move towards CPC status, so those salaries are
   included in the PC&B costs of our budget request. In addition, this year’s plan
   will have some cost information.

We find FAA’s response unclear as to exactly what the Agency plans to do. We
are requesting that FAA clarify its intentions to (1) show that it is achieving total
productivity, as measured by “bottom line improvements,” and (2) include in this
year’s plan “some cost information.”




Management Comments and OIG Response
                                                                               21



ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we are
requesting that FAA provide us, within 30 calendar days, with a timeframe for
implementing the planned actions regarding recommendations 3 and 4 (issuing
instructions on data to be included in the OJT national database and using the
database to improve oversight of the OJT process). In addition, we are requesting
that FAA clarify its intentions regarding our prior recommendations to
(a) establish baseline metrics for all of the initiatives in the 2004 Plan and (b)
develop detailed cost estimates and offsets that identify the annual and total net
costs associated with the 2004 Plan.




Actions Required
                                                                                   22



EXHIBIT A. SCOPE AND METHODOLOGY
This audit was conducted in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurances of detecting abuse or
illegal acts. The following scope and methodology were used in conducting this
review.

During this audit, we visited FAA Headquarters, the FAA Training Academy, two
en route facilities, two TRACONs, and six air traffic control towers. We gathered
data and interviewed officials at all locations visited. We also reviewed and
analyzed FAA’s 2006 Update to “A Plan for the Future, The Federal Aviation
Administration’s 10-Year Strategy for the Air Traffic Control Workforce,” issued
in August 2006.

To evaluate actions taken or planned by FAA to address implementation of key
staffing and training elements of the Controller Workforce Plan, we conducted
interviews with managers at all levels of the Agency. We compared staffing
numbers and projections from the facilities with the numbers from Headquarters to
determine whether they correspond. We discussed the differences in the controller
hiring process with the Aviation Careers Division in Oklahoma City to determine
if improvements were made to the hiring process over the past 2 years. As a point
of reference for training statistics, we visited facilities that we visited previously
during our 2004 and 2005 audits. The differences in staffing and training
processes were then recorded and analyzed. We also reviewed and analyzed the
2006 Update to determine whether past OIG recommendations were implemented.

To determine the effects of implementing other productivity initiatives from the
2004 Plan, we interviewed FAA officials concerning establishing baseline metrics
for the initiatives and whether impacts of the initiatives are being monitored. We
also reviewed and analyzed the initiative status FAA provided in the 2006 Update
to determine whether the productivity initiatives are being measured for
effectiveness and whether impacts are being properly reported. We also analyzed
data from FAA Headquarters to determine how air traffic controller productivity
was being calculated.

Finally, we conducted a limited review of FAA’s new national OJT database by
comparing information from the database to actual training statistics from the
facilities we visited to determine the accuracy of the database.




Exhibit A. Scope and Methodology
                                                                        23



EXHIBIT B. FACILITIES VISITED
En Route Centers

   • Washington Center
   • New York Center

Terminal Radar Approach Control Facilities

   • Potomac TRACON
   • New York TRACON

Air Traffic Control Towers

   •   Dulles Air Traffic Control Tower (ATCT)
   •   Islip ATCT
   •   John F. Kennedy ATCT
   •   LaGuardia ATCT
   •   Manassas ATCT
   •   Reagan National ATCT

FAA Headquarters, Washington, D.C.

FAA Training Academy, Oklahoma City, OK

National Air Traffic Controllers Association Headquarters, Washington, D.C.




Exhibit B. Facilities Visited
                                                                                                           24



EXHIBIT C. STATUS OF VARIOUS PRODUCTIVITY INITIATIVES
INCLUDED IN THE CONTROLLER WORKFORCE PLAN

   2004 CWP          2004
                                                         Target
  Productivity       CWP         2004 CWP Goal                         FAA’s 2006 Updated Progress
                                                          Date
    Initiative      Source

                                                                   Achieved 3-percent productivity increase
                    3.3.1                                          based on staff reduction only for
Increased Work                10-percent productivity
                    (pp.24-                              FY 2010   FY 2005. FAA indicated that it had no
Efficiency          25)       / staff savings.
                                                                   methodology to measure the impact of
                                                                   most other productivity initiatives.

                              Part-time and split-
                    3.3.2 &   shifts may reduce labor              No progress noted in 2006 Update, as the
Flexible Work       3.3.3     costs and offer            Unknown
                                                                   new contract for controllers was
Schedules           (pp.25-   employees job                        implemented in Sept. 2006, after the
                    26)
                              flexibility.                         2006 Update was issued.


Overtime            3.3.4     Reduced overtime           FY 2005
                                                                   Overtime was held to FY 2004 levels
Management          (p.26)    costs and staffing.                  with reduced staffing.

                              8-percent reduction
Reduction of        3.3.5                                          FY 2005 sick leave usage “slightly
                              (Approx equivalent
Sick Leave          (pp.5 &                              FY 2006   below” FY 2004 (exact percentage not
                    27)       savings: 73
Usage                                                              reported).
                              controllers).

                              Revised management                   New management of claims estimated
Reduction in
                    3.3.6     approach will be                     cost avoidance of $5.4 million. Return -
Workers’            (p.28)
                                                         FY 2007
                              implemented agency-                  To-Work cost avoidance estimated at
Compensation
                              wide.                                $1 million

                                                                   Official time reporting system
Limiting Official
                              Reduce official time                 implemented in FY 2005. ATO to
Time to             3.3.7                                 March
                    (p.29)    used for union              2005     ensure all official time in accord with the
Negotiated
                              representational duties.             new contract for controllers. Ten full-
Hours
                                                                   time persons returned to the workforce.
                              Institute more judicious
Limiting
                              use of controller                    Participation reduced by 23,400 hrs
Controller          3.3.8
                    (p.29)    participation and          Unknown   (-37 percent from FY 2004). Cost
Participation on
                              reduce backfill                      savings = almost $1 million.
Workgroups
                              overtime.
                              Uphold policies stated
                              in FAPM Letter 330-1
Processing
                    3.3.9     to help remedy staffing    Current   Developmental performance results not
Unsuccessful        (p.30)                               policy
                              imbalance between                    yet reported for FY 2006.
Developmentals
                              terminal and en route
                              facilities.




Exhibit C. Status of Various Productivity Initiatives Included in the
Controller Workforce Plan
                                                                                                               25



  2004 CWP         2004
                                                          Target
 Productivity      CWP          2004 CWP Goal                              FAA’s 2006 Updated Progress
                                                           Date
   Initiative     Source

                             Improve the efficiency                    Vendor selected in April 2006. Pilot
                  3.3.11     of facility-based                         evaluation started in May 2006.
Scheduling Tool   (p.31)
                                                         Unknown
                             controller work                           National deployment in FY 2007 and
                             schedules.                                beyond.
                                                         Final phase
Implementation    3.3.12     More efficient                            Deployment to all en route and terminal
                                                         begins June
of Cru-X/ART      (p.31)     controller utilization.                   facilities complete.
                                                            2005

                             Improve automation
Changing
                  3.3.13     and timely availability                   Fielding and implementation of
National          (pp.31-    of data to controllers to   Unknown       numerous technologies is ongoing and
Airspace          32)        reduce the staffing                       projected into the future as far as 2025.
Technologies
                             requirement.
                             Consolidate several
Facility Co-                 small facilities to
                  3.3.13.1                                             Terminal and en route co-location and
Location and      (p.33)     decrease operations,        Unknown
                                                                       realignment studies are in progress.
Consolidations               maintenance, and
                             infrastructure costs.




Exhibit C. Status of Various Productivity Initiatives Included in the
Controller Workforce Plan
                                                   26



EXHIBIT D. MAJOR CONTRIBUTORS
Daniel Raville                  Program Director

Robert A. Romich                Project Manager

Erik Phillips                   Senior Analyst

Mi Hwa Button                   Analyst

Claudia Estrada                 Analyst

Benjamin Huddle                 Analyst

Andrea Nossaman                 Writer/Editor




Exhibit D. Major Contributors
                                                                            27



EXHIBIT E. RELATED OFFICE OF INSPECTOR GENERAL
REPORTS (2002 – 2006)
   • CC-2006-074, “Observations on FAA’s Oversight of Aviation Safety,”
     September 20, 2006.
   • CC-2006-027, “Perspectives on FAA’s FY 2007 Budget Request and the
     Aviation Trust Fund,” March 28, 2006.
   • AV-2006-021, “FAA Has Opportunities To Reduce Academy Training
     Time and Costs by Increasing Educational Requirements for Newly Hired
     Air Traffic Controllers,” December 2005.
   • AV-2005-060, “Controller Staffing: Observations on FAA’s 10-Year
     Strategy for the Air Traffic Controller Workforce,” May 26, 2005.
   • CC-2005-022, “Next Steps for the Air Traffic Organization,” April 14,
     2005.
   • AV-2004-081, “FAA’s Actions To Address Leave and Overtime Abuse at
     Five Locations,” September 9, 2004.
   • CC-2004-058, “Addressing Controller Attrition:          Opportunities and
     Challenges Facing the Federal Aviation Administration,” June 15, 2004.
   • AV-2004-060, “Opportunities To Improve FAA’s Process for Placing and
     Training Air Traffic Controllers in Light of Pending Retirements,” June 2,
     2004.
   • AV-2004-033, “Using CRU-X To Capture Official Time Spent on
     Representational Activities,” February 13, 2004.
   • AV-2003-059, “FAA’s Management of Memorandums of Understanding
     with the National Air Traffic Controllers Association,” September 12,
     2003.
   • AV-2003-011, “FAA’s Oversight of Workers’ Compensation Claims in Air
     Traffic Services,” January 17, 2003.
   • AV-2002-064, “Automated Flight Service Stations: Significant Benefits
     Could be Realized by Consolidating AFSS Sites in Conjunction with
     Deployment of OASIS,” December 7, 2001.

These reports can be found on the OIG website at www.oig.dot.gov.




Exhibit E. Related Office of Inspector General Reports (2002-2006)
                                                                                             28




APPENDIX. MANAGEMENT COMMENTS

                                                                  Federal Aviation
                                                                   Administration



Memo
        To:     Principal Assistant Inspector General for Auditing and Evaluation
        From:   Assistant Administrator for Financial Services and Chief Financial Officer
        Date:   February 8, 2007
        Re:     ACTION: Draft Report: FAA Continues To Make Progress in
                Implementing Its Controller Workforce Plan, but Further Efforts Are
                Needed in Several Key Areas Project Number 06A3010A000



As requested in your memorandum dated December 15, 2006, the following is the
Federal Aviation Administration’s (FAA) response to the subject draft report.

1. OIG Recommendation: Include in the next update of the Plan the progress
   made by the Agency and its contractors in validating facility staffing standards
   including the number of facilities completed, the staffing ranges established for
   each of those locations, and the estimated completion date for all remaining
   facilities.
   FAA Comments: Concur. As described in chapter 3 of the 2006 Plan,
   staffing requirements are fluid and can be impacted by a number of variables.
   FAA plans to publish staffing ranges for all facilities in the next update of the
   Plan and subsequent plans will be updated with revised ranges as the families
   of staffing models are revised. We will make facility-specific adjustments as
   necessary throughout the year, as we did last year.

2. OIG Recommendation: Refine its methodology for projecting controller
   retirements so that events that have the potential to significantly impact
   controller retirements (similar to what occurred in September 2006) are taken
   into consideration.
   FAA Comments: Non-Concur. As noted in the Inspector General’s report,
   the FAA made improvements to its methodology for projecting controller

Appendix. Management Comments
                                                                                  29


   retirements. In the first six months of FY06, FAA’s projections tracked very
   close to actual retirements. However, in the second half of FY06, actual
   retirements versus projections began to diverge, most likely as a result of the
   rhetoric associated with the contract impasse. Even so, the FAA was able to
   proactively increase its planned new hires during the last quarter of the year to
   compensate for the increased retirements.          Rather than refining the
   methodology to account for one-time events, the FAA believes the ability to
   adjust the hiring pipeline is a more appropriate way to deal with unpredictable
   events which may affect controller retirements.

   We note that for the first quarter of FY07, actual retirements are running about
   42 per month, which is in line with projections. We do expect a significant
   spike for the month of January, as this is typical in previous years as well. In
   October 2006 we set up our pipeline to accommodate more new hires than
   expected losses in the event that projections are inaccurate or other unforeseen
   circumstances occur.

   Finally, with respect to the 20% reduction in CIP, it is the agency’s intent to
   replace CIP with a more focused program designed to address retention and
   recruitment at hard to staff facilities. We believe this will mitigate the effect,
   if any, on retirements as a result of changes in the CIP program.

3. OIG Recommendation: Issue clear instructions to all air traffic facilities on
   exactly what data should be included and how those data should be entered
   into the OJT national database.
   FAA Comments: Concur.

4. OIG Recommendation: Begin using the OJT national database to (a)
   determine whether training resources can be used more efficiently and
   effectively, (b) identify best practices, and (c) identify and investigate
   instances where excessive time lapses in the OJT process occurred.
   FAA Comments: Concur.

   While the IG pointed out a single facility where training gaps were still
   occurring, we note that since we have begun focusing on the OJT process,
   there have been improvements at various facilities. ATO has implemented the
   OJT database in both Enroute and Terminal training operations. Enroute has
   two training metrics in the FY07 Strategic Management Plan (SMP) which
   rely on queries from the database. The first metric measures the "three years
   to CPC" guidance in the FAA flight plan and the second measures progress in
   the individual stages of training: "90% of our developmentals must be on
   track in their stage training." Enroute is reviewing these measures monthly


Appendix. Management Comments
                                                                                  30


   with all 20 centers and questioning individual facility training efficiency and
   practices.

• OIG Recommendation: Establish baseline metrics for all of the initiatives in
  the 2004 plan and annually evaluate actual progress made in (a) implementing
  each initiative and (b) achieving the anticipated staffing reduction of 10
  percent.

• FAA Comments: Concur, in part. The Controller Workforce Plan was
  developed at the request of Congress to ensure that we have a plan to replace
  retiring controllers. As part of the Plan, there were more than 35 separate
  initiatives listed in the 2004 Plan, most of which are interdependent (non-
  separable) and/or have no costs associated with them. Therefore, they cannot
  be baselined to derive meaningful quantifiable measures tied to productivity.
  In addition, broad changes realized as a result of our contract negotiations
  impact the initiatives identified in the 2004 Plan and present new opportunities
  for improvement.
   We can, however, show that we are achieving total productivity, as measured
   by bottom line improvements. We will continue to provide status updates for
   initiatives that will help the agency achieve the total productivity goal, but
   estimating the contribution of each initiative is labor intensive, costly, and
   would divert resources.

• OIG Recommendation: Develop detailed cost estimates and offsets that
  identify the annual and total net costs associated with the 2004 Plan.
   FAA Comments:            Concur, in part.      Determining the total cost of
   implementing the plan is difficult to calculate because the cost to hire and train
   the new controllers is embedded in the agency’s annual budget. Further, since
   improvements are made each year, total 10 year costs would vary from year to
   year in the plan. Annually, the budget identifies training and hiring costs as
   well as cost savings from some FAA initiatives. The previous budget (FY
   2006) included a discretionary increase to expand Academy training in order
   for the agency to have adequate funding to train new staff consistent with
   targets set in the plan. In addition, developmental controllers in various stages
   of training actually perform controller work as they move towards CPC status,
   so those salaries are included in the PC&B costs of our budget request. In
   addition, this year’s plan will have some cost information.




Appendix. Management Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
     The Federal Aviation Administration Continues To Make Progress in
Implementing Its Controller Workforce Plan, but Further Efforts Are Needed in
                             Several Key Areas
                          Section 508 Compliant Presentation

Figure 1. Some of the Various Numbers Used To Define National Staffing
Requirements
    Controllers by Facility Type            Fiscal Year       Interim   Actual On
                                           2006 Staffing      Staffing   Board
                                             Standard         Target
 Number of En Route Controllers                     7,760         5,695      6,603
 Number of Terminal Controllers                     7,297         7,807      7,676
 Total                                             15,057        13,502     14,279
Source: Federal Aviation Administration

Figure 2. Various Numbers Used To Define Controller Requirements for Two
Facilities
Controller Locations         Actual On   Fiscal Year        Interim    Negotiated
                              Board         2006            Staffing    Number
                                           Staffing         Target
                                          Standard
Number at New York                   190          179            199         270
TRACON
Number at Washington                 371           485           337         412
Center
Source: Federal Aviation Administration

Figure 3. The Federal Aviation Administration’s Controller Retirement
Projections Versus Actual Retirements
       Figure 3a. Fiscal Year 2005 Projections Versus Actual Retirements
 Controller Retirement                                          Fiscal Year 2005
 2004 Plan Retirement Projections                                      341
 Actual Retirements                                                    465
Source: Federal Aviation Administration

       Figure 3b. Fiscal Year 2006 Projections Versus Actual Retirements
 Controller Retirement                                          Fiscal Year 2006
 2004 Plan Retirement Projections                                      439
 2006 Update (Anticipated Retirements During FY 2006)                  467
 Actual Retirements                                                    583
Source: Federal Aviation Administration
The Figure 3 charts illustrate that the 2004 plan projected that 341 air traffic
controllers would retire in fiscal year 2005, and 439 would retire in fiscal year 2006.
Actual retirements for fiscal year 2005, however, were 465 controllers. The 2006
update revised anticipated retirements in fiscal year 2006 from 439 to 467. However,
583 controllers actually retired during fiscal year 2006.

Figure 4. The Federal Aviation Administration’s Total Projected Controller
Losses*
Fiscal Year             2004 Plan                       2006 Update
                       Total Losses                     Total Losses
    2006                                  654                            800
    2007                                  907                          1,007
    2008                                  967                          1,008
    2009                                1,032                          1,017
    2010                                1,144                          1,051
    2011                                1,249                          1,098
    2012                                1,375                          1,167
    2013                                1,451                          1,107
    2014                                1,559                          1,059
Source: Federal Aviation Administration 2004 Plan and 2006 Update.
      *Total losses include retirements, resignations, removals, deaths, training failures,
        and promotions.

Figure 5. Federal Aviation Administration Fiscal Year 2006 Projected
Retirements Versus Actual Retirements
 Month and Fiscal Year                Projected Fiscal            Actual Fiscal
                                        Year 2006                  Year 2006
 October 2005                               17                         15
 November 2005                              25                         26
 December 2005                              40                         23
 January 2006                               99                        103
 February 2006                              21                        32
 March 2006                                 29                         26
 April 2006                                 49                        52
 May 2006                                   23                         40
 June 2006                                  47                        64
 July 2006                                  48                        55
 August 2006                                26                         50
 September 2006                             39                        97
Source: Federal Aviation Administration
During the first 6 months of fiscal year 2006, the Federal Aviation Administration’s
projections were extremely close to the actual number of retirements. However,
beginning in April 2006, actual retirements began exceeding the Federal Aviation
Administration’s projections when negotiations between the Agency and the National
Air Traffic Controllers Association over a new collective bargaining agreement
reached an impasse. By September, when the Federal Aviation Administration began
unilaterally implementing its own proposals for open Articles, actual retirements were
nearly three times high than the Federal Aviation Administration had projected, which
underscores the need for the Agency to refine its methodology to consider future
events that could trigger a similar reaction.

For example, there may be a significant jump in controller retirements during January
2007 when many controllers will see a reduction in their pay checks as the Federal
Aviation Administration begins phasing out, a second locality pay that many
controllers now receive.

Figure 6. Federal Aviation Administration’s Controller Hiring Estimates
      Figure 6a. Fiscal Year 2005 Estimates Versus Actual Hires
        Controller Hiring                 Fiscal Year
                                             2005
 2004 Plan Hiring Projections                 435
 Actual Number of Controllers Hired           519
Source: Federal Aviation Administration

      Figure 6b. Fiscal Year 2006 Estimates Versus Actual Hires
        Controller Hiring                                             Fiscal Year
                                                                         2006
 2004 Plan Hiring Projections                                            1,249
 2006 Update (Anticipated New Hires Needed During Fiscal Year              930
 2006)
 Actual Number of Controllers Hired                                      1,116
Source: Federal Aviation Administration

Because actual controller retirements were more than the Federal Aviation
Administration’s projections in fiscal year 2005 and fiscal year 2006, FAA hired more
controllers than they had anticipated. As illustrated in Figure 6, the 2004 plan
projected a need for 435 new controllers in FY 2005. The Federal Aviation
Administration hired 519 controllers.             Likewise, the Federal Aviation
Administration’s 2006 update projected a need for 930 new controllers in fiscal year
2006, while 1,116 new controllers were actually hired. The increased hiring levels
were possible because the Federal Aviation Administration has made progress in
streamlining the controller hiring process.
